CERTIFICATE OF WORD COUNT

Per Supreme Court Rule 33.1(h), I certify that the document contains
8,670 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

IC eee

Counsel of Record
DEPARTMENT OF DEFENSE
MILITARY COMMISSIONS

DEFENSE ORGANIZATION
1620 Defense Pentagon
Washington, DC 20301
1.703.695.4672
michel.d.paradis.civ@mail.mil

Executed on August 24, 2021

Counsel for Petitioner
